CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on June 24, 2020, an
original of Supplemental Brief in Support of Petition
for Writ of Certiorari was mailed via U.S. postal
"priority mail" to the Clerk of the United States
Supreme Court and a true and correct copy was
mailed via U.S. postal "priority mail" to opposing
counsel at the following address:
Geri Romanello St. Joseph
Supreme Court of Pennsylvania
Administrative Office of
Pennsylvania Courts
1515 Market Street
Suite 1414
Philadelphia, PA 19102
(215) 560-6300

Clerk, Supreme Court
of the United States
1 First Street, NE
Washington, DC
20543

I declare under penalty of perjury that the
foregoing is true and correct.

Executed on June 24, 2020

E. Thomas Scarborough III, pro se

